The Department of Justice Office of the Inspector General (OIG) today released a report
examining allegations that Teresa Carlson, the former Special Agent in Charge of the Federal
Bureau of Investigation’s (FBI) Milwaukee Field Office, tampered with a witness in a civil
case. Carlson is currently an Acting Deputy Assistant Director at FBI Headquarters.

The investigation was initiated after a complaint was submitted to the OIG by the attorney for
Justin Slaby, a telecommunications specialist with the Critical Incident Response Group’s
Hostage Rescue Team at the FBI. Slaby had previously filed a disability discrimination
complaint in the United States District Court for the Eastern District of Virginia alleging that the
FBI refused to consider reasonable accommodations such as the use of a prosthesis for Slaby,
an Army veteran who lost his left hand when a grenade prematurely detonated, and wrongly
disqualified him as a New Agent Trainee at the FBI Academy in Quantico, Virginia. The
complaint to the OIG followed a May 2013 pleading in the litigation containing the same
allegations against Carlson.

Shortly after the OIG received the complaint from Slaby’s attorney, the FBI’s Inspection Division
contacted the OIG about allegations that Carlson had tried to influence the testimony of Special
Agent Mark Crider in a deposition for the Slaby lawsuit. Later in our investigation, we received
an allegation that in a separate incident, Carlson had admonished another agent in the
Milwaukee Field Office for providing information to FBI inspectors about the office’s
communications with local law enforcement in connection with a mass shooting at a Sikh
temple in August 2012.

We concluded that Carlson conducted herself unprofessionally and exhibited extremely poor
judgment when she made statements to Crider relating to his deposition in the Slaby
lawsuit. We also concluded that Carlson’s statements to Crider created the appearance that she
was attempting to improperly influence his deposition testimony. We similarly concluded that
Carlson’s conduct was highly inappropriate and reflected a troubling lack of judgment when she
admonished another agent for his comments to an FBI inspection team about the Milwaukee
Field Office’s handling of the Sikh temple shooting. We found that Carlson’s conduct created
the appearance that she discouraged her subordinates from speaking candidly with
inspectors. We referred our findings of Carlson’s conduct to the FBI for a determination of
whether disciplinary or other administrative action is warranted.

The report released publicly today contains redactions of information that the FBI and the U.S.
Attorney’s Office for the Eastern District of Virginia asserted is protected by the attorney-client
privilege or attorney work-product doctrine, as well as redactions that the FBI determined are
necessary to protect law enforcement sensitive information or the privacy of individuals. In
addition, the OIG made a limited number of redactions to protect the privacy interest of an
individual.

The report can be found on the OIG’s website
at: http://www.justice.gov/oig/reports/2014/s140827.pdf.
